OIG Investigative Reports, Former Owner of Technical Training School Gets Year in Prison for Defrauding Departments of Education and Labor
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release
New Jersey, October 2, 2006
U.S. Department of Justice
U.S. Attorney, District of New Jersey
970 Broad Street, Seventh Floor
Newark, New Jersey 07102
Christopher J. Christie, U.S. Attorney
Donna A. Gallucio, Assistant U.S. Attorney
973-645-2786
Public Affairs Office
Michael Drewniak, PAO
973-645-2888
Former Owner of Technical Training School Gets Year in Prison
for Defrauding Departments of Education and Labor
NEWARK – The owner of Merit Technical Institute, a technical school formerly located in Newark, was sentenced today to a year and a day in federal prison for fraudulently
obtaining approximately $392,000 from the U.S. Departments of Education and Labor,
U.S. Attorney Christopher J. Christie announced.
Victor Mungai Kamunge, 53, of Newark, also paid over the balance owed in restitution –
$388,305 – to the government today at sentencing before U.S. District Judge Katharine S.
Hayden.
Judge Hayden ordered Kamunge to turn himself in to the federal Bureau of Prisons by
Dec. 28 to begin serving his custodial sentence.
Kamunge pleaded guilty on April 10 to a one-count Information charging him with
embezzling from the United States, according to Assistant U.S. Attorney Donna Gallucio.
Kamunge admitted at his plea hearing from October 2001 to October 2003, as the
president and owner of Merit Technical Institute, he knowingly applied for and received
educational and training benefits of about $392,000 for students who were unqualified
and programs that were ineligible.
The school, formerly located on Commerce Street in Newark and now in Jersey City,
trains students for jobs in the medical and computer software fields, according to
Kamunge. The school received funds from the U.S. Department of Labor job-training
program called the Workforce Investment Act, and the funds were distributed through the
Newark Mayor’s Office of Employment and Training, as well as the Essex County
Economic Development Corp.
Merit also received funds from the U.S. Department of Education’s Federal Family
Education Program (FFEL).
Kamunge admitted that between October 2001 and October 2003 he submitted or had
others submit false student transcripts and attendance records to qualify for Department of
Labor funds. In doing so, Kamunge fraudulently received about $182,700 from the
Department of Labor program.
Kamunge also admitted that, during the same period, he fraudulently received
approximately $209,700 in Department of Education FFEL funds on behalf of students
who were enrolled in courses that were ineligible for funding. To conceal the fraud,
Kamunge admitted that he submitted false documents, including transcripts and
attendance reports, to give the false impression that the students were enrolled in eligible
programs.
Christie credited Special Agents of the Department of Education, Office of Inspector
General, under the direction of Gary E. Mathison, Special Agent in Charge, Northeast
area; and Special Agents of the Department of Labor Office of Inspector General, under
the direction of Inspector General Gordon S. Heddell, with developing the case against
Kamunge.
The Government is represented by Assistant U.S. Attorney Gallucio, of the U.S.
Attorney's Commercial Crimes Unit in Newark.
-end-
Defense Attorney: Paul Brickfield, Esq., River Edge
Printable view
Share this page
Last Modified: 10/13/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov